Report No. D-2011-040             February 18, 2011 





     Defense-Wide Research and Development Near 

      Term Energy-Efficient Technologies Projects

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFRL                          Air Force Research Laboratory
BAA                           Broad Agency Announcement
CECOM                         Communications-Electronics Command
CPFF                          Cost-Plus-Fixed-Fee
DLA                           Defense Logistics Agency
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
FPDS                          Federal Procurement Data System
FFP                           Firm-Fixed-Price
NAVAIR                        Naval Air Systems Command
NTEET                         Near Term Energy-Efficient Technologies
OMB                           Office of Management and Budget
RDECOM                        Research, Development, and Engineering Command
RDT&E                         Research, Development, Test, and Evaluation
RFPs                          Requests for Proposals
TACOM-LCMC                    TACOM–Life Cycle Management Command
USACE                         U.S. Army Corps of Engineers
                                    INSPECTOR GEN ERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON , VIRGINIA 22202-4704 


                                                                                February 18, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE RESEARCH AND ENGINEERING
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: Defense-Wide Research and Development Near Term Energy-Efficient
         Technologies Projects (Report No. D-2011-040)

We are providing this report for your information and use. The Defense Logistics Agency
(DLA) and the Military Departments properly justified and adequately planned and funded
15 Defense-wide Near Term Energy-Efficient Technologies (NTEET) projects. However, DLA
and the Military Departments could have improved NTEET project contracting and transparency.
We considered management comments on a draft ofthis report when preparing the final report.
Based on Department of the Army comments, we deleted draft report Recommendation 2.a.2 and
renumbered draft report Recommendation 2.a.l as Recommendation 2.a in this final report.

Management comments conformed to the requirements of DoD Directive 7650.3; therefore, no
additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
THIS PAGE INTENTIONALLY LEFT BLANK

Report No. D-2011-040 (Project No. D2009-D000AB-0170.004)                         February 18, 2011

                Results in Brief: Defense-Wide Research and
                Development Near Term Energy-Efficient
                Technologies Projects

What We Did                                                    •	 posted the solicitation and/or award
We reviewed the planning, funding, contracting,                   notifications and included a description of the
and initial execution of 15 Defense-wide Near Term                work to be performed in the public notifications.
Energy-Efficient Technologies (NTEET) program
research and development projects, valued at                   DLA and the Military Departments did not include
$72.94 million, implemented by the Defense                     Recovery Act clauses, properly describe work to be
Logistics Agency (DLA), Army, Navy, and                        performed, and maintain OMB-required public
Air Force. We reviewed the projects to ensure that             notification and awareness for the NTEET projects
the contracting efforts of DLA and the Military                due to a lack of consistent contract implementation
Departments complied with the American Recovery                and oversight. As a result, DLA and the Military
and Reinvestment Act of 2009 (Recovery Act)                    Departments did not achieve the Recovery Act
requirements, Office of Management and Budget                  objective of transparency in implementing Defense-
(OMB) guidance, the Federal Acquisition                        wide NTEET actions.
Regulation (FAR), and DoD implementing
guidance including the DoD NTEET Program Plan                  What We Recommend
of May 15, 2009.                                               We recommend that the Director, Defense Research
                                                               and Engineering, emphasize again with DLA and
What We Found                                                  the Military Departments, the need for the Defense-
DLA and the Military Departments properly                      wide NTEET contracting officers to post public
justified and adequately planned and funded                    Web site solicitation and/or award notifications that
15 Defense-wide NTEET projects. In addition,                   include appropriate descriptions of Recovery Act
DLA and Military Department officials generally                work performed and appropriate Recovery Act FAR
used solicitation techniques such as Broad Agency              clauses. We recommend the above entities modify
Announcements and Requests for Proposals to                    5 Defense-wide NTEET contracts to include
solicit and award contract actions, with 69 percent            appropriate Recovery Act FAR clauses, modify
of the actions using full and open competition. As             16 public Web site award notifications to include
of June 30, 2010, DLA and the Military                         appropriate descriptions of the Recovery Act work
Departments awarded a total of 32 contract actions,            to be performed, and post all Recovery Act actions
valued at approximately $56 million of the                     to the required public Web sites.
$72.94 million in available Recovery Act funds, for
14 of the 15 Defense-wide projects. However, DLA               Management Comments
and the Military Departments could have improved               Management comments were responsive to the
NTEET project contracting and public notification              recommendations, and no further comments are
processes. Specifically, DLA and the Military                  required. Based on the comments, we deleted draft
Departments should have:                                       report Recommendation 2.a.2 and renumbered draft
                                                               report Recommendation 2.a.1 as
•	 included FAR-required Recovery Act contract                 Recommendation 2.a in this final report. Please see
   clauses in solicitation notifications, solicitations,       the recommendations table on the back of this page.
   and in contract documentation and



                                                           i
Report No. D-2011-040 (Project No. D2009-D000AB-0170.004)           February 18, 2011

Recommendations Table

        Management                  Recommendations         No Additional Comments
                                   Requiring Comment               Required
Director, Defense Research and
                                                              1.a, 1.b, 1.c, and 1.d
Engineering
Commander, Communications-
                                                                   2.a and 2.b
Electronics Command
Commander, Research,
Development, and Engineering                                       3.a and 3.b
Command
Head of Contracting Activity,
Army Contracting Command
                                                                        4
National Capital Region
Contracting Center
Commander, U.S. Army Corps of
                                                                   5.a and 5.b
Engineers
Director, Defense Logistics
                                                                        6
Agency




                                          ii
Table of Contents 


Introduction	                                                                     1


      Objectives                                                                 1

      Recovery Act Background                                                    1

      Recovery Act Requirements                                                  1

      Recovery Act Contracting Requirements                                      2

      OMB Recovery Act Guidance                                                  3

      DoD Recovery Act Program Plans                                             3

      Review of Internal Controls                                                4


Finding. Defense-Wide Near Term Energy-Efficient Technologies Program 

Implementation                                                                    5


      Defense-Wide NTEET Program Adequately Planned                              5

      Defense-Wide NTEET Program Properly Funded                                 7

      Defense-Wide NTEET Contract Actions Were Generally Competed                7

      NTEET Contracting Actions Awarded Through Three Contract Types             8

      Transparency of Defense-Wide NTEET Contracting Needs Improvement           9

      Conclusion                                                                11     

      Management Comments on the Finding                                        11 

      Recommendations, Management Comments, and Our Response                    12 


Appendices

      A. 	Scope and Methodology                                                 16 

             Use of Computer-Processed Data                                     17 

             Prior Coverage                                                     17 

      B. Recovery Act Criteria and Guidance 	                                   18 

      C. 	DoD Near Term Energy-Efficient Technologies Program Funding and 

             Functional Areas                                                   20 

      D. 	Description and Status of Defense-Wide Near Term Energy-Efficient 

             Technologies Projects                                              22 

      E. Defense-Wide Near Term Energy-Efficient Technologies Contracts         26 


Management Comments

      Office of the Secretary of Defense                                        30 

      Department of the Army                                                    31 

      Defense Logistics Agency                                                  40




                                           iii
THIS PAGE INTENTIONALLY LEFT BLANK

Introduction
Objectives
The primary objective of the audit was to determine whether DoD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act; Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009; and subsequent
related guidance. For this audit, we reviewed the planning, funding, contracting, and
initial execution of 15 Near Term Energy-Efficient Technologies (NTEET) program
research and development projects to ensure that Military Departments and Defense
Logistics Agency (DLA) contracting efforts complied with Recovery Act requirements,
OMB guidance, the Federal Acquisition Regulation (FAR), and DoD implementing
guidance. See Appendix A for a discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by
                  spurring technological advances in science and health.
              (4) To invest in transportation, environmental protection, and other
                  infrastructure that will provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize
                  and avoid reductions in essential services and counterproductive state
                  and local tax increases.
                       .        .         .        .        .       .        .        

       . . . the heads of Federal departments and agencies shall manage and expend the 

       funds made available in this Act so as to achieve the purposes specified . . . 

       including commencing expenditures and activities as quickly as possible 

       consistent with prudent management. 


Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act requires that
projects be properly planned to ensure the appropriate use of funds. Review of the
funding phase is to ensure the funds were distributed in a prompt, fair, and reasonable
manner. Review of the project execution phase is to ensure that contract actions awarded
with Recovery Act funds were transparent, competed, and contained specific FAR
clauses; that Recovery Act funds were used for authorized purposes; and that instances of
fraud, waste, error, and abuse were mitigated. Review of the initial execution phase also
ensures that program goals were achieved, including specific program outcomes and


                                                   1

improved results on broader economic indicators; that projects funded avoided
unnecessary delays and cost overruns; and that contractors or recipients of funds reported
results. Review of the tracking and reporting phase ensures that the recipients’ use of
funds was transparent to the public and that benefits of the funds were clearly, accurately,
and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

    •	    buying American construction material,*
    •	    protecting contractor whistleblowers,
    •	    publicizing contract actions,
    •	    reporting, and
    •	    giving the Government Accountability Office and agency Inspectors General
          access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

     •	   identify the action as funded by the Recovery Act,
     •	   post pre-award notices for orders exceeding $25,000,
     •	   describe supplies in a clear narrative to the general public, and
     •	   provide the rationale for awarding any contracting actions that were not both
          fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.



*FAR Section 25.6, “American Recovery and Reinvestment Act – Buy American Act – Construction
Materials,” is not applicable to Defense-wide Recovery Act NTEET projects because these projects are
research and development, not construction.


                                                   2

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.

FAR 6.1, “Full and Open Competition,” describes the steps necessary for full and open
competition. Full and open competition includes full and open competition after
exclusion of sources, which allows an agency to exclude a particular source(s) when
doing so would ultimately be more beneficial to the agency than if competition was full
and open. FAR 6.302, “Other Than Full and Open Competition,” allows for sole-source
contracts when “only one responsible source and no other supplies or services will satisfy
agency requirements.”

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DoD and the Components issue their implementation
guidance. OMB has issued 10 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DoD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization; Homeowners Assistance; Military Construction; Near
Term Energy-Efficient Technologies; and U.S. Army Corps of Engineers (USACE) Civil
Works (see Table 1).

     Table 1. DoD Agency-Wide and Program-Specific Recovery Act Programs
                             Program                          Amount
                                                            (in millions)
     Energy Conservation Investment                               $120
     Facilities Sustainment, Restoration, and Modernization      4,260*
     Homeowners Assistance                                         555
     Military Construction                                       2,185
     Near Term Energy-Efficient Technologies                       300
     U.S. Army Corps of Engineers Civil Works                    4,600
        Total                                                 $12,020*
   *On August 10, 2010, Public Law 111-226, Title III, “Rescissions,” rescinded $260.5 million of funds
   from DoD Operations and Maintenance Accounts supporting the Recovery Act. This reduced the DoD
   Recovery Act Facilities Sustainment, Restoration, and Modernization amounts to approximately
   $4 billion and total DoD Agency-wide and Program-Specific Recovery Act program funding to
   approximately $11.76 billion.




                                                  3

The Recovery Act divides the approximately $12 billion among 32 DoD and USACE line
items of appropriations.

Research and Development Contracting
The primary purpose of contracted research and development programs is to advance
scientific and technical knowledge and apply that knowledge to achieve agency and
national goals. Unlike contracts for other services and supplies, most research and
development contracts contain objectives for which the work or method cannot be
precisely described in advance. Although the Government prefers to use fixed-price
contracts, they do not usually apply in research and development contracting, where
specifications and cost estimates are usually not precise enough to permit a fixed-price
preference. Therefore, the DoD NTEET Program Plan, May 15, 2009, forecasted a
smaller percentage of fixed-price contract actions for anticipated Recovery Act NTEET
program projects than for other Recovery Act project categories.

FAR Part 35, “Research and Development Contracting,” states that the Broad Agency
Announcement (BAA) is used by agencies to fulfill their requirements for scientific study
and experimentation directed toward advancing the state of the art or increasing
knowledge or understanding rather than focusing on a specific system or hardware
solution. A BAA is used when proposals with varying technical or scientific approaches
can be reasonably anticipated. A BAA describes the agency’s research interest in an
individual program requirement or in broadly defined areas of interest covering the full
range of an agency’s requirements.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness in the posting of solicitation and award notices for Defense-wide
NTEET program contract actions. The Commander, Communications-Electronics
Command (CECOM); the Commander, Research, Development, and Engineering
Command (RDECOM); the Commander, USACE; and the Director, DLA, should better
facilitate the transparency of Recovery Act contract actions posted on Government Web
sites by implementing Recommendations 2.a, 3.b, 5.a, and 6, respectively. The
Commander, CECOM; Commander, RDECOM; the Head of Contracting Activity, Army
Contracting Command National Capital Region Contracting Center; and the Commander,
USACE, should better facilitate the inclusion of required Recovery Act FAR clauses in
Defense-wide NTEET contracts by implementing Recommendations 2.b, 3.a, 4, and 5.b,
respectively. We will provide a copy of the report to the senior officials responsible for
internal controls at the commands.




                                            4

Finding. Defense-Wide Near Term Energy-
Efficient Technologies Program
Implementation
DLA and the Military Departments properly justified and adequately planned and funded
15 NTEET projects. In addition, DLA and the Military Departments generally competed
Defense-wide NTEET contract actions through the use of solicitation techniques such as
BAAs and RFPs. As of June 30, 2010, 32 contract actions, valued at $56 million of the
$72.94 million in available Defense-wide RDT&E Recovery Act funds, were awarded for
14 of the 15 Defense-wide Recovery Act NTEET projects. However, DLA and the
Military Departments could have improved NTEET project contracting and public
notification processes. Specifically, the Military Departments and DLA should have:

   •	 included required Recovery Act contract clauses in solicitation notifications for
      28 of the 32 Defense-wide NTEET contract actions,
   •	 included at least 1 missing Recovery Act contract clause in 5 contracts,
   •	 increased public awareness by posting the solicitations and/or award notices for
      13 contract actions, and
   •	 increased public awareness by describing the work to be performed for 

      16 contract actions. 


DLA and the Military Departments did not include FAR-required Recovery Act clauses
in the contracts, properly describe work to be performed, and maintain OMB-required
public notification and awareness for all Defense-wide NTEET projects because of
inconsistent contract implementation and oversight. The inclusion of all applicable
Recovery Act clauses in the solicitations informs contractors about reporting
requirements and promotes compliance. As a result, DLA and the Military Departments
did not achieve the Recovery Act objective of transparency in implementing Defense-
wide NTEET actions.

Defense-Wide NTEET Program Adequately Planned
Under the Recovery Act, Congress appropriated $300 million for DoD Research,
Development, Test, and Evaluation (RDT&E) funds in four appropriation accounts of
$75 million each for Army, Navy, Air Force, and Defense-wide NTEET Recovery Act
projects. The Defense-wide program is directed by the Director, Defense Research and
Engineering, who assigned specific projects to each Military Service and DLA. The
services and DLA submitted RDT&E candidate projects for review in five broad areas:

   •	   fuel optimization for mobility platforms,
   •    facility energy initiatives, 

   •    operational efficiencies and commercial practices, 

   •	   domestic energy supply and distribution, and
   •	   tactical power systems and generators.



                                             5

See Appendix C for a further description of each of these five program areas.

The DoD Energy Security Task Force, with members from the Military Departments,
Defense agencies, and the Office of the Secretary of Defense and chaired by the Director,
Defense Research and Engineering, reviewed the projects. The DoD Energy Security
Task Force planned and selected the 15 Defense-wide NTEET projects shown in Table 2
based on their ability to satisfy DoD capability gaps, present opportunities for military
applications, or spur initiatives within industry and DoD Components. Of the
15 Defense-wide NTEET projects, 10 are being implemented by the Army; 1 by the
Naval Air Systems Command (NAVAIR), Warfare Center Weapons Division; 2 by the
Air Force Research Laboratory (AFRL); and 2 by DLA. Of the 10 Army Defense-wide
NTEET implemented projects, 6 are being implemented by USACE; and 1 each by the
Army Contracting Command National Capital Region Contracting Center; the TACOM-
Life Cycle Management Command (TACOM-LCMC), CECOM; and RDECOM.

     Table 2. Defense-Wide RDT&E Recovery Act Projects Funded by RDT&E 

                               Appropriation

                      Projects                         Implementing Command          Amount
                                                                                   (in millions)
 1. Materials – Ceramic Matrix Composites                       AFRL                   $4.86
 2. Fuel Efficient Ground Vehicle Demonstrators            TACOM-LCMC                   8.75
                                                          Army Contracting
 3. Energy Modeling                                    Command National Capital        1.60
                                                       Region Contracting Center
 4. Continuous Building Commissioning                          USACE                   6.80
 5. Energy Enterprise Management                               USACE                   1.94
 6. Solid Waste Gasification                                   USACE                   2.92
 7. Anaerobic Digester Technology                              USACE                   1.94
 8. Landfill Gas Energy Capture                                USACE                   2.43
 9. Wind Lift Power Generator                                 RDECOM                   0.97
10. Mobile Waste to Energy                                      DLA                    7.31
11. HPCM Maui Energy Improvement Initiative                     AFRL                   3.89
12. Algal Derived Biofuel Program                               DLA                    5.85
                                                       NAVAIR, Warfare Center
13. Plasma Fusion (Polywell)                                                           1.94
                                                          Weapons Division
14. Fuel Cells                                                 CECOM                  18.47
15. Tactical, Deployable Micro-Grid                            USACE                   3.26
Subtotal                                                                              72.94
Small Business Innovative Research and Small
                                                               Various                 2.06
Business Tech Transfer Set-Aside*
  Total                                                                              $75.00
See Appendix D for more detail on the 15 Defense-wide NTEET projects.




                                                  6

Defense-Wide NTEET Program Properly Funded
Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
personnel released Defense-wide NTEET funds totaling $75 million appropriated in
Public Law 111-5, “American Recovery and Reinvestment Act of 2009,” on
March 10, 2009, by using two funding authorization documents. The Director, Budget
and Finance Washington Headquarters Services, received $61.5 million, and DLA
received the remaining $13.5 million. On March 27, 2009, DLA used a funding
authorization document to transfer the money to program offices implementing the
Mobile Waste to Energy project and the Algal Derived Biofuel project. Washington
Headquarter Services transferred $59.44 million in funds to recipient commands to
support the 13 remaining Defense-wide NTEET projects by issuing a sequence of
Military Interdepartmental Purchase Requests and funding authorization documents from
April 8 through September 15, 2009. Once the funds were received, the commands
began to award contracts for their respective projects.

Defense-Wide NTEET Contract Actions Were Generally
Competed
DLA and the Military Departments used contract actions to execute work for the
                                              14 projects. See Appendix E for a summary
       . . . 22 of the 32 Defense-wide        of the issues covering the 32 contract actions
   NTEET contract actions (69 percent)        reviewed. According to FPDS, 22 of the
   were solicited and awarded on a full       32 Defense-wide NTEET contract actions
         and open competitive basis.          (69 percent) were solicited and awarded on a
                                              full and open competitive basis; an
additional 7 contract actions (22 percent) were solicited and awarded through full and
open competition after exclusion of sources. The remaining 3 contract actions (9 percent)
were awarded on a sole-source basis.

Use of Broad Agency Announcements and Request for
Proposals
DLA and Military Department officials used BAAs and RFPs to solicit and award
27 contract actions for a total of $41.25 million. BAAs were issued in accordance with
FAR 6.102(d) (2), “Use of Competitive Procedures,” and FAR 35.016, “Broad Agency
Announcement,” which provide for competitive selection of research and development
proposals. RFPs were issued in accordance with FAR paragraph 15.203, “Request for
Proposals,” to negotiate “acquisitions to communicate Government requirements to
prospective contractors and to solicit proposals.” Generally, BAAs and RFPs are used
for full and open competition.

Use of Modifications to Original Contract
The Army and the Air Force used modifications to existing contracts for eight Defense-
wide NTEET actions, valued at $20.58 million. For example, AFRL issued three
modifications for the Ceramic Matrix Composite project. The Army issued five
modifications: one modification for the Fuel Efficient Demonstrator project and one for



                                             7

the Landfill Gas Energy Capture project, and three modifications for the Fuel Cells
project. The 3 Air Force modifications along with the 1 Army Landfill Gas Capture
project modifications were issued on contracts that were initially awarded based on full
and open competition. The remaining 4 Army modifications were issued on contracts
that were initially awarded based on full and open competition after exclusion of sources.

Sole-Source Contracts Were Justified
The Army and the Navy used sole-source justifications for three contracts, using
$4.46 million of Recovery Act funds. FAR 6.302 allows for the use of sole-source
contracts when “only one responsible source and no other supplies or services will satisfy
agency requirements.” All three awards included acceptable justification and approval
documentation in the contract files. The Army used sole-source justifications for two
contracts, one by the Army Contracting Command National Capital Region Contracting
Center for the Energy Modeling project and the other for the RDECOM Wind Lift Power
Generator project. NAVAIR, Warfare Center Weapons Division, used a sole-source
justification to award a contract for the Plasma Fusion (Polywell) project.

NTEET Contracting Actions Awarded Through Three
Contract Types
Different contract types were used by the contracting offices for the 32 contracting
actions. The contracts included 5 firm-fixed-price (FFP), 25 cost-plus-fixed-fee (CPFF),
and 2 cost-reimbursable contracts.

Defense-Wide Use of Fixed-Price Contracts for NTEET
Of the 32 Defense-wide NTEET contract actions, 5 actions, valued at $5.4 million, used
fixed-price type contracts. FAR 35.006, “Contracting methods and contract type,” states
that the absence of precise specifications and difficulties in estimating costs with
accuracy normally precludes the use of fixed-price contracting for research and
development; therefore, the use of cost-reimbursement contracts can be appropriate.
However, for four Defense-wide projects contracted for by the Army and DLA,
specifications were sufficiently precise that five FFP contracts were awarded. The four
Defense-wide NTEET projects include:
        •	 Energy Modeling—Army Contracting Command National Capital Region
            Contracting Center, one contract;
        •	 Wind Lift Power Generator—RDECOM, one contract;
        •	 Tactical Deployable Micro-Grid—USACE, one contract; and
        •	 Algal Derived Biofuel—DLA, two contracts.

Defense-Wide Use of Cost-Plus-Fixed-Fee Contracts for NTEET
                                           Twenty-five of the 32 Defense-wide NTEET
  Twenty-five of the 32 Defense-wide       contract actions, valued at $48.6 million of
  NTEET contract actions, valued at        Recovery Act funds, used CPFF type
     $48.6 million of Recovery Act         contracts. As previously stated, FAR 35.006
   funds, used CPFF type contracts.        allows for the use of cost-reimbursement
                                           contracts.


                                            8

Defense-wide NTEET projects that used CPFF contracts include:

       •	 Materials – Ceramic Matrix Composites – AFRL, two contracts;
       •	 Fuel Efficient Ground Vehicle Demonstrator – TACOM-LCMC, one contract;
       •	 Continuous Building Commissioning – USACE, four contracts;
       •	 Energy Enterprise Management – USACE, one contract;
       •	 Solid Waste Gasification – USACE, four contracts;
       •	 Anaerobic Digester Technology – USACE, one contract;
       •	 Landfill Gas Energy Capture – USACE, two contracts;
       •	 HPCM Maui Energy Improvement Initiative – AFRL, one contract;
       •	 Algal Derived Biofuel Program – DLA, one contract;
       •	 Plasma Fusion (Polywell) – NAVAIR, Warfare Center Weapons Division,
          one contract;
       •	 Fuel Cells – CECOM, six contracts; and
       •	 Tactical Deployable Micro-Grid – USACE, one contract.

Defense-Wide Use of Cost-Reimbursement Contracts for NTEET
Two Defense-wide NTEET contract actions were cost-reimbursement types. One of the
three Ceramic Matrix Composites contract actions awarded by AFRL for $1.52 million
and one of two Energy Enterprise Management project contracts awarded by USACE
used a cost-reimbursement contract for $400,000 of Recovery Act funds. FAR 16.302
states “a cost contract may be appropriate for research and development work,
particularly with nonprofit educational institutions.” The Energy Enterprise Management
contractor is a state-funded university that cannot utilize CPFF contracts.

Transparency of Defense-Wide NTEET Contracting
Needs Improvement
We found multiple instances in which public awareness was not achieved in Defense-
wide project contracts and solicitations. The problems included missing Recovery Act
clauses in solicitations and contracts and lack of public notification of contracts solicited
and awarded. See Appendix E for a summary of transparency problems for all
32 contract actions.

Recovery Act Contract Clauses Missing in Defense-Wide NTEET
Solicitations and Contracts
Only 4 of the 32 contract actions listed required FAR clauses on presolicitation or award
notices posted on FBO. DLA and the Military Departments should have included FAR-
required Recovery Act clauses in the solicitation notification for the other 28 contract
                                                   actions reviewed. For example,
   DLA and the Military Departments should         USACE should have included clauses
   have included FAR-required Recovery Act         in the 16 solicitation notifications.
    clauses in the solicitation notification for   USACE contracting officials stated
     the other 28 contract actions reviewed.       that the clauses were not included in
                                                   the notifications because the applicable


                                              9

underlying BAAs were posted prior to the release of the Recovery project appropriation.
We believe that DoD needs to reemphasize to the Military Departments and DLA to
include required FAR clauses in the solicitation notifications posted on the FBO Web
site.

We found that 27 of the 32 contract actions reviewed included required Recovery Act
clauses in the contract as documented in the official contract file. The 5 contract actions
that did not include at least one required contract clause included:
     •	 Energy Modeling project–Army Contracting Command National Capital Region
         Contracting Center, one contract,
     •	 Landfill Gas Energy Capture Project–USACE, one contract action,
     •	 Wind Lift Power Generator–RDECOM, one contract, and
     •	 Fuel Cells–CECOM, two contract actions.

The RDECOM contracting officer stated that the “Whistleblower Protection Under the
American Recovery and Reinvestment Act of 2009” clause was left out due to
contracting office error. The Army should modify the noted contracts to comply with
Recovery Act contracting requirements.

Public Awareness of Defense-Wide NTEET Solicitations and
Contracts Could be Improved
Only 4 of the 32 Defense-wide NTEET contract actions met transparency requirements.
One contract for the NAVAIR, Warfare Center Weapons Division, Plasma Fusion
project; two of the three contracts for the Algal Derived Biofuel project; and one of the
two contracts for the Tactical Deployable Micro-Grid met the transparency requirements.
Public awareness was not achieved for 13 contract actions where contract officials did
not post a presolicitation, contract modification, or a contract award notice on FBO.
Sixteen contract actions did not include a detailed description in the presolicitation or
award notice posted on FBO. Contracting officials did not post the required FAR clauses
in the notices on FBO for 28 contract actions. See Appendix D for description of
individual project transparency problems.

Projects Lacked Recovery Act Solicitations
Army, Air Force, and DLA officials did not post a solicitation notification on FBO for
five Defense-wide NTEET contract actions. The AFRL did not post a Recovery Act
solicitation notification for three Materials – Ceramic Matrix Composites project contract
actions because contracting officials believed that the three solicitation notifications were
connected to potential contract modifications that were within the scope of the original
non-Recovery Act contract. However, per FAR 5.7, “Publicizing Requirements Under
the American Recovery and Reinvestment Act of 2009,” the solicitation notifications
must be posted.

DLA did not post a notification for Algal Derived Biofuel Program project for one of the
three contracts. Also, USACE did not post a notification for one of the two contracts for
the Energy Enterprise Management project due to lack of oversight by the contract
specialist.


                                             10

Projects Without Recovery Act Award Notices
Army and DLA officials did not issue required FBO award notices for eight Defense-
wide NTEET contract actions. Seven of the eight contract actions were awarded by the
Army; one contract for the Wind Lift Power Generator project and six contract actions
for the CECOM Fuel Cells project. After we notified CECOM personnel of the error, the
CECOM contracting officer took corrective action by posting five award notices on
June 1, 2010. Contract officials awarded the sixth contract action on June 9, 2010, and
posted an award notice on August 3, 2010, after we notified them of the missing award
notification. DLA did not post an award notice for one of the three contracts on FBO for
the Algal Derived Biofuel Program project. DLA managers noted that the award
notification was not posted because the contracting officer made a determination that it
was not required because the Algal Derived Biofuel Program project was ongoing. We
concluded that the award notification was required because the contract action was
specifically for new Recovery Act work.

Reasons for Transparency Deficiencies in Defense-Wide NTEET
Contracting
Public awareness was not achieved for 28 of the 32 Defense-wide NTEET contract
actions. This was due to lack of contracting office oversight; by not posting solicitations
                                           and/or award notices; by not including
  Public awareness was not achieved        required FAR clauses in the solicitation
     for 28 of the 32 Defense-wide         notification, solicitation, and contract; and by
        NTEET contract actions.            not describing the work to be performed in the
                                           solicitation or award notice posted on FBO.
Inclusion of all applicable Recovery Act clauses in solicitations informs contractors about
reporting requirements and promotes compliance.

Conclusion
DLA and Military Departments officials generally used competitive Defense-wide
NTEET contract actions, awarding 32 actions, valued at approximately $56 million, for
14 of the 15 Defense-wide NTEET Recovery Act projects. We found 13 contract actions
that did not have a solicitation and/or an award notice posted on FBO. In addition, we
found 16 solicitations and award notices for which contracting officials did not facilitate
transparency by providing detailed descriptions of the projects. Also, only 4 of the
32 contract actions listed required FAR clauses on the presolicitation or award notices
posted on FBO; however, 27 of the 32 actions included the required FAR clauses in the
contract file documentation.

Management Comments on the Finding
The Director, DLA Acquisition, responding on behalf of the Director, DLA, agreed with
the finding without further comment.




                                            11

Recommendations, Management Comments,
and Our Response
Deleted and Renumbered Recommendations
As a result of comments from the Executive Director, CECOM, we deleted draft report
Recommendation 2.a.2 and renumbered draft report Recommendation 2.a.1 as
Recommendation 2.a in this final report.

1. 	 We recommend that the Director, Defense Research and Engineering, improve
     Recovery Act contract compliance for the Defense-wide Near Term Energy-
     Efficient Technologies program by re-emphasizing with the Service Acquisition
     Secretaries and the Director, Defense Logistics Agency, the need for the Defense-
     wide Near Term Energy-Efficient Technologies program contracting officers to:

            a. Post to the required public Web site presolicitation notices,
solicitations, and/or award notifications.

         b. Include appropriate descriptions of the Recovery Act work to be
performed in public postings.

           c. Include full justification for solicitations or awards that are not fixed-
price in nature.

           d. Include all appropriate Recovery Act Federal Acquisition Regulation
clauses for Defense-wide Near Term Energy-Efficient Technologies program
contracts.

Office of the Secretary of Defense Comments
The Principal Deputy, Director, Defense Research and Engineering, responding on behalf
of the Director, Defense Research and Engineering, agreed and stated that Defense
Research and Engineering would continue to monitor the progress of projects throughout
the life-cycle of the effort.

Our Response
The Principal Deputy, Director, Defense Research and Engineering, comments are
responsive and meet the intent of the recommendation. In supplementary
correspondence, Defense Research and Engineering staff stated that the implementation
of the recommendations would be completed by March 1, 2011.
2.	 We recommend that the Commander, Communications-Electronics Command:

         a. Direct the modification of contracts W15P7T-10-C-B009, W15P7T­
10-C-B010, W15P7T-10-C-B011, W15P7T-10-C-B010-P00002, W15P7T-10-C-B011­



                                           12

P00002 to: include full justification for awards that are not fixed-price in nature in
the Federal Business Opportunities and other required Web sites.

          b. Direct the modification of contract W15P7T-10-C-B009 to include all
required Recovery Act clauses.


Department of the Army Comments
The Executive Director, CECOM Contracting Center, responding on behalf of the
Commander, CECOM, agreed with Recommendations 2.a. and b. The Executive
Director noted that CECOM staff updated the FBO Web site to include the rationale for
using cost-plus-fixed-fee contracts and modified the contract to include all required
Recovery Act clauses.

Our Response
The Executive Director, CECOM Contracting Center, comments are responsive and meet
the intent of the recommendations. We confirmed that CECOM updated the FBO Web
site to include the rationale for cost-plus-fixed-fee contracts and modified the contract to
include the required Recovery Act clauses. No further management comments are
required.

3.	 We recommend that the Commander, Research, Development, and Engineering
    Command:

          a. Direct the modification of contract W911QX-09-C-0093 to include all
required Recovery Act clauses.

         b. Direct the posting of the award announcement of contract W911QX­
09-C-0093 to the Federal Business Opportunities and other required Web sites.


Department of the Army Comments
The Executive Director, U.S. Army RDECOM Contracting Center, responding on behalf
of the Commander, RDECOM agreed, noting that REDCOM modified the contract to
include required Recovery Act clauses and updated the FBO Web site to include the
required award notice.

Our Response
The Executive Director, U.S. Army RDECOM Contracting Center, comments are
responsive and meet the intent of the recommendations. We confirmed that RDECOM
amended the contract to include the required Recovery Act clauses and updated the FBO
Web site to include the required award notice. No further management comments are
required.




                                            13

4.	 We recommend that the Head of Contracting Activity, Army Contracting
    Command National Capital Region Contracting Center, direct the modification
    of contract W91WAW-09-C-0162 to include all required Recovery Act clauses.

Department of the Army Comments
The Director, National Capital Region Contracting Center, agreed and modified the
contract to include the required Recovery Act clauses.

Our Response
The Director, National Capital Region Contracting Center, comments are responsive and
meet the intent of the recommendation. We confirmed that the National Capital Region
Contracting Center modified the contract to include the required Recovery Act clauses.
No further management comments are required.

5.	 We recommend that the Commander, U.S. Army Corps of Engineers
    Humphrey’s Engineering Center:

          a. Direct the revising and posting of the award notices for contracts
W912HQ-08-C-0040-P00002, W912HQ-09-C-0053, W912HQ-09-C-0054, W912HQ­
09-C-0055, W912HQ-09-C-0056, W912HQ-09-C-0058, W912HQ-09-C-0059,
W912HQ-09-C-0060, W912HQ-09-C-0061, W912HQ-10-C-0001, and W912HQ-10­
C-0050, to include the appropriate descriptions of the Recovery Act work to be
performed in the Federal Business Opportunities and other required Web sites; and

          b. Direct the modification of contract W912HQ-08-C-0040 to include all
required Recovery Act clauses.

Department of the Army Comments
The Deputy Chief, Headquarters Internal Review Office, responding on behalf of the
Commander, USACE, agreed and stated that USACE updated the FBO Web site to
include the required project description and amended the contract to include the required
Recovery Act clauses.

Our Response
The Deputy Chief, Headquarters Internal Review Office, comments are responsive and
meet the intent of the recommendation. We confirmed that USACE amended the
contract to update a clause to conform to Recovery Act requirements. No further
management comments are required.

6.	 We recommend that the Director, Defense Logistics Agency, direct the posting of
    the award announcement of contract SP4701-09-C-0040 to the Federal Business
    Opportunities and other required Web sites.




                                           14

Defense Logistics Agency Comments
The Director, DLA Acquisition, responding on behalf of the Director, DLA, agreed and
noted that DLA updated the FBO Web site to include the required award notice. The
Director also stated that she instructed the Director for Acquisition Policy to prepare
correspondence to the DLA contracting workforce reminding the workforce of its
responsibility to post contract award announcements to FBO.

Our Response
The Director, DLA Acquisition, comments are responsive and meet the intent of the
recommendation. No further management comments are required.




                                           15

Appendix A. Scope and Methodology
This is the second in a series of reports on DoD implementation of the Recovery Act
NTEET program. We conducted this performance audit from September 2009 to
December 2010 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and our conclusions
based on our audit objectives. The evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We visited or contacted all 15 Defense-wide NTEET Recovery Act project offices,
excluding Small Business Innovative Research projects. Locations visited include AFRL
Wright Patterson Air Force Base, Dayton, Ohio (1 project); TACOM-Life Cycle
Management Command, Warren, Michigan (1 project); USACE Humphrey’s Engineer
Center, Alexandria, Virginia (5 projects); DLA, Fort Belvoir, Virginia (2 projects);
NAVAIR, Warfare Center Weapons Division, China Lake, California (1 project); and
CECOM, Aberdeen Proving Ground, Maryland (1 project). During these visits we
researched each project, its status in the contract award process, and how it was being
managed to comply with the transparency and accountability objectives in the Recovery
Act and with OPM, FAR, and DoD implementing guidance.

The remaining four project officials were contacted by phone or through e-mail. Those
commands included the Army Contracting Command National Capital Region
Contracting Center, Washington, D.C. (1 project); RDECOM, Adelphi, Maryland
(1 project); AFRL, Kirtland Air Force Base, New Mexico (1 project); and USACE,
Philadelphia District (1 project). We obtained documentation, including charts on
individual Defense-wide projects, BAA announcements, and milestone timelines. We
reviewed Defense-wide NTEET program-related solicitation and contract award notices
posted on the FBO Web site through June 30, 2010. Specifically, we determined
whether:

   •	 the selected projects were adequately planned to ensure the appropriate use of
      Recovery Act funds (Planning);
   •	 funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding); and
   •	 contract actions contained required Recovery Act FAR clauses (Initial Execution).

We used this supporting documentation to determine whether the contract solicitations
and awards met OMB, FAR, and DoD Recovery Act implementation and transparency
requirements. We applied the Recovery Act Contract Checklist developed by the
Recovery Accountability and Transparency Board. In addition, we met with officials in
the Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
to learn how candidate NTEET projects were selected for Recovery Act funding.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with


                                           16

unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by USACE.

Use of Computer-Processed Data
We used computer-processed data to perform this audit. Specifically, we used the notices
on the FBO Web site, data reported from the FPDS and the Excluded Parties List System,
the DoD Recovery Act Financial and Activity Report, and contract documentation from
the Electronic Data Archive System posted from April 2009 to July 2010. We tested the
accuracy of this data by comparing the project data reported on different systems for
consistency and by meeting with program officials responsible for reporting on the
applicable Recovery Act requirements. Our audit focused on the reporting of contract
actions on specific Defense-wide projects. From these procedures, we concluded that the
DoD data were sufficiently reliable for meeting the audit objectives.

Prior Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                           17

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents (notes appear at
the end of the list):

   •	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
      2009, and for Other Purposes,” February 12, 2009

   •	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,” 

      February 17, 2009 


   •	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   •	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Investment Act of 2009 Appropriations,” February 25, 2009

   •	 White House Memorandum, “Government Contracting,” March 4, 2009

   •	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   •	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the 

      American Recovery and Reinvestment Act of 2009,” April 3, 20091

      
   •	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009
      
   •	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009
      
   •	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092
      
   •	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009
      


                                           18

    •	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
       September 11, 2009

    •	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

    •	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
       Job Estimates,” December 18, 20092

    •	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
       and Reinvestment Act,” March 22, 20102

    •	 White House Memorandum, “Combating Noncompliance With Recovery Act
       Reporting Requirements,” April 6, 20102

    •	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 20102

    •	 OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
       and Reinvestment Act,” September 24, 20102




Notes
1
  The Memorandum provides Government-wide guidance for carrying out programs and activities enacted
in the American Recovery and Reinvestment Act of 2009. The guidance states that the President’s
commitment is to ensure that public funds are expended responsibly and in a transparent manner to further
job creation, economic recovery, and other purposes of the Recovery Act.
2
 These documents provide Government-wide guidance for carrying out the reporting requirements
included in section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in
October 2009 and will contain detailed information on the projects and activities funded by the Recovery
Act.




                                                   19

Appendix C. DoD Near Term Energy-
Efficient Technologies Program Funding and
Functional Areas
The Recovery Act appropriated $300 million in DoD RDT&E funds in four appropriation
accounts of $75 million each for Army, Navy, Air Force, and Defense-wide RDT&E
Recovery Act projects. The DoD NTEET program divided the funds to support project
categories. The table below provides the RDT&E funding and category of the planned
work.

     Table. Program Categories and Values of Energy-Related RDT&E Projects
                               (values in thousands)
       Category           Army          Navy          Air   Defense-   DoD
                                                     Force   Wide     Total
Fuel Optimization for
Mobility Platforms             $40,000    $52,900      $28,000       $16,000      $136,900
Facility Energy Initiatives     10,000      3,500                                   13,500
Operational Efficiencies and
Commercial Practices            None        None         1,000         9,000        10,000
Domestic Energy Supply and
Distribution                    15,000      16,100      37,000        47,000       115,100
Tactical Power Systems and
Generators                      10,000       2,500       9,000         3,000        24,500
    Total                      $75,000    $75,000      $75,000       $75,000      $300,000


The energy-related projects have the potential to identify technologies that can increase
our fuel efficiency and thereby reduce our dependence on foreign energy.

Fuel Optimization for Mobility Platforms
These RDT&E efforts include testing various materials, like ceramics, in engine and
equipment design to lower thermal loads and decrease the need for cooling of component
parts that require additional energy to perform the cooling tasks. Efforts also include
conducting demonstrations on the fuel efficiency of low observable subsonic propulsion
systems for unmanned aerial vehicles.

Facility Energy Initiatives
These projects include developing or reviewing off-the-shelf enterprise energy auditing
programs and software that can couple energy security with energy efficiency, reduce
power consumption in tactical heating and air-conditioning systems, and develop whole-
building energy modeling and monitoring systems and renewable energy building
integration.




                                            20

Operational Efficiencies and Commercial Practices
These projects include developing or reviewing off-the-shelf enterprise energy auditing
and water management programs and software that can couple energy security with
energy efficiency, whole-building energy modeling, monitoring systems, and renewable
energy building integration.

Domestic Energy Supply and Distribution
These include waste-to-energy and waste-to-fuel technology research and
demonstrations, landfill gas use, biomass and algae fuel oil production, multi-junction
solar photovoltaics for cells and sensors, wave and thermal energy from oceans, wind
power, and analyzing radar cross sections.

Tactical Power Systems and Generators
These projects include developing and demonstrating methanol-based portable fuel cells
with improved energy densities, long-duration multi-junction photovoltaics for
Unmanned Aerial Vehicles, waste heat to cooling using absorption environmental control
systems, and scalable micro-grid electrical distribution systems for fixed and tactical
installation use.




                                            21

Appendix D. Description and Status of
Defense-Wide Near Term Energy-Efficient
Technologies Projects
The Recovery Act provided $75 million of RDT&E funding for improvements in energy
generation and efficiency, transmission, storage, and for use on military installations and
within operations forces. The projects include research and development of energy from
algae biofuel, micro-grids, and kite-powered generators.

1. Materials – Ceramic Matrix Composites
Ceramic Matrix Composites are high-temperature materials that are replacing metals in
high-temperature components of turbine engines and nuclear reactors. They are more
lightweight and last longer than metals but cost more to manufacture at the present time
because the technology is just now being scaled up. The AFRL at Wright Patterson Air
Force Base, Ohio, awarded three modifications to existing contract actions under this
project for a total of $4.86 million, the total funded amount. Public awareness would
have been improved by posting presolicitation notices on the FBO Web site.

2. Fuel Efficient Ground Vehicle Demonstrator
The Fuel Efficient Ground Vehicle Demonstrator is designing and fabricating one full-
scale vehicle system demonstrator. This vehicle is utilizing fuel efficient technologies by
maximizing fuel economy. The TACOM-LCMC Contracting Center awarded one
modification that was an exercised option under the original contract for this project for
$8.75 million, the full funded amount.

3. Energy Modeling
The Energy Modeling project is developing a fully burdened cost-of-fuel analysis tool.
This is enabling the Army Contracting Command National Capital Region Contracting
Center to predict the fuel consumption of all its vehicles for different scenarios with more
accuracy. The Army awarded one contract for this effort for $1.55 million. The Army
Contracting Command National Capital Region Contracting Center would have improved
transparency by ensuring all of the required Recovery Act clauses were included in the
contract.

4. Continuous Building Commissioning
The Continuous Building Commissioning project is demonstrating monitoring systems
capable of identifying, classifying, and quantifying energy and water consumption
deviations from design intent or optimal usage. This project is identifying the causes of
those deviations, and recommending, prioritizing, and implementing corrective actions.
The USACE Humphrey’s Engineer Center awarded four contracts for this project, with a
total value of $5.72 million. Two of these contracts are in combination with two other
projects, Solid Waste Gasification (#6) and Landfill Gas Energy Capture (#8). Public
awareness would have been improved by adding project descriptions to the four


                                            22

presolicitations and award notices posted on FBO. After we notified them of the error,
contract officials posted project descriptions to FBO on July 29 and 30, 2010. The
USACE Humphrey’s Engineer Center also utilized two Military Interdepartmental
Purchase Requests to transfer $1.08 million of Continuous Building Commissioning
project Recovery Act funds to the Department of Energy.

5. Energy Enterprise Management
The Energy Enterprise Management project is assessing, evaluating, and prototyping an
energy enterprise management application that can be used from the building level, all
the way up to the Office of the Secretary of Defense level, to manage and aggregate
energy data and to affect technology information transfer. The USACE Humphrey’s
Engineer Center awarded two contracts for this project totaling $1.71 million. Public
awareness would have been improved by posting a presolicitation notice on the FBO
Web site for one contract and by adding project descriptions to one presolicitation and
both award notices posted on FBO Web site. After we notified them of the error, contract
officials posted project descriptions to FBO on July 29 and 30, 2010.

6. Solid Waste Gasification
The Solid Waste Gasification project is validating a Waste-to-Energy Conversion system
capable of converting combustible municipal solid waste and biomass, such as plant
materials, into electricity and heat on permanent DoD installations. All DoD installations
generate solid wastes that contain biomass from packaging and paper, construction
debris, and wood removed for land clearing and maintenance of the forested areas within
the installation boundary. The USACE Humphrey’s Engineer Center awarded four
contracts for this effort, for $2.79 million. Two of these contracts are in combination
with two other projects, Continuous Building Commissioning (#4) and the Tactical
Deployable Micro-Grid projects (#15). Public awareness would have been improved by
adding the four project descriptions to the presolicitations and award notices posted on
the FBO Web site. After we notified them of the error, contract officials posted project
descriptions to FBO on July 29 and 30, 2010.

7. Anaerobic Digester Technology
The Anaerobic Digester Technology project is demonstrating anaerobic digestion of food
and associated wastes for generating renewable energy in the form of biogas. The
USACE Humphrey’s Engineer Center awarded one contract for this project for
$1.91 million. Public awareness would have been improved by adding a project
description to the presolicitation and award notice posted on the FBO Web site. After we
notified them of the error, contract officials posted a project description to FBO on
July 30, 2010.

8. Landfill Gas Energy Capture
Landfills produce waste gas streams containing methane that is often vented, flared, or
otherwise destroyed. This project is generating electrical power from these landfill gases.
The USACE Humphrey’s Engineer Center awarded two contract actions for a total of
$2.43 million. One of these contracts is in combination with the Continuous Building



                                            23

Commissioning project (#4). Public awareness would have been improved by adding the
two project descriptions to presolicitations and award notices posted on FBO and by
ensuring that all of the required Recovery Act clauses were listed in the modification.
After we notified them of lack of project descriptions, contract officials posted one of the
descriptions to FBO on July 29, 2010. The other project description was posted to FBO
on August 23, 2010. The contracting officer made two amendments to the contract. The
first amendment was made on September 24, 2009, to include the required Recovery Act
clauses. The second amendment was made on December 27, 2010 to update a clause
from the original contract to conform to Recovery Act requirements.

9. Wind Lift Power Generator
The Wind Lift Power Generator is using a kite-like apparatus to harness the power of the
wind. The harnessed wind is being converted into usable energy and stored in batteries
that can be used to power lights, refrigerators, fans, etc. The RDECOM Acquisition
Center at Adelphi, Maryland, awarded one contact for this effort for $970,000. Public
awareness would have been improved by posting an award notice on the FBO Web site.
After we notified RDECOM of the error, RDECOM posted an award notice along with
the justification and approval for use of a sole-source on July 23, 2010, to FBO.

10.     Mobile Waste to Energy
The Mobile Waste to Energy program is assessing technology that converts waste to
liquid fuel in a scalable mobile unit that could potentially be used at forward operating
bases. DLA posted a solicitation on FBO but resolutions could not be met through the
contract negotiation process. Contract officials posted a new solicitation in April 2010
with responses due in July 2010.

11.     HPCM Maui Energy Improvement Initiative
The Maui Energy Improvement Initiative project is researching and developing high-
efficiency solar cells. This effort will produce a solar power demonstration, providing a
significant power generation capability of new high-efficiency solar cells. The AFRL at
Kirtland Air Force Base, New Mexico, awarded one contract for this effort for
$3.88 million.

12.    Algal Derived Biofuel Program
The Algal Derived Biofuel Program project is evaluating technology to increase the
production of algae-derived fuels and to support the Military Services’ test and
certification programs. DLA awarded three contracts for this project for a total of
$4.09 million. DLA Energy, Fort Belvoir, Virginia, awarded two contracts. DLA
Contracting Services Office Philadelphia, Philadelphia, Pennsylvania awarded the third
contract. The third contract lacked transparency by not posting a presolicitation or award
notice on FBO. After we notified them of this error, contract officials posted an award
notice on December 16, 2010. In addition, one of the DLA Energy contracts used
Defense-wide NTEET Recovery Act funds in conjunction with Navy Recovery Act
NTEET funds.




                                             24


13.    Plasma Fusion (Polywell)
The Plasma Fusion (Polywell) project is developing a machine that uses magnetic fields
to contain a cloud of electrons. The cloud of electrons establishes an electric field that
will be used to accelerate positively charged ions of fusible material. The NAVAIR
Warfare Center Weapons Division has awarded one contract for this project for
$1.94 million. This contract is in combination with a Navy Recovery Act NTEET project
and met transparency requirements.

14.    Fuel Cells
This project is developing a fuel cell battery source capable of a 300-watt output. This
fuel cell reduces the size and weight of past designs while increasing the reliability,
durability, and service life. The CECOM Contracting Center awarded six contract
actions for this effort for a total of $12.16 million. Public awareness would have been
improved by posting all six award notices on FBO and by ensuring all of the required
Recovery Act clauses were included in two of the contract actions. Three of the contract
actions are modifications to the original contracts and do not list the required clauses;
however, since two of the three original contracts list the required Recovery Act clauses,
this is acceptable for these two actions. The third original contract did not list all of the
required clauses; therefore the third modification does not list the required clauses.
Corrective action was taken to post the required award notices on June 1, 2010, for five
of the six contract actions; however, these award notices did not state why the contract
was awarded as CPFF. The sixth contract action award notice was posted on August 3,
2010, and included the rationale for using CPFF. Four of the five award notices posted
on June 1, 2010, were modified on August 3, 2010, to include rationale of why the
contract actions were not awarded using a firm fixed price. CECOM also utilized a
Military Interdepartmental Purchase Requests to transfer $6.3 million of Fuel Cells
project Recovery Act funds to the U.S. Air Force.

15.    Tactical, Deployable Micro-Grid
Micro-grid technology improves security, reliability, and efficiency of DoD power
management, thus reducing energy costs and the carbon footprint. Renewable electrical
power generation can come from a variety of distributed generation sources. The
USACE Humphrey’s Engineer Center and USACE–Philadelphia District awarded one
contract each for this project for a total of $3.23 million. One of the contracts is in
combination with the Solid Waste Gasification project (#6). This contract would have
improved public awareness by adding a project description to the presolicitation and
award notice posted on FBO. After we notified them of the error, contract officials
posted a project description to FBO on July 30, 2010. The other contract met
transparency requirements.




                                             25

       Appendix E. Defense-Wide Near Term Energy-Efficient Technologies Contracts

                                                                                                                           Posted      Included
                                                                                                              Posted
                                                                                                                         Recovery     Appropriate   Included
          Project /                                                                 Posted        Posted    Adequate                                           Contract
                           Contract      Contract    Competition   Solicitation                                             Act        Recovery     Contract
          Contract                                                                Solicitation   Award       Project                                            Action
                            Action        Type         Level        Format                                                Contract    Act Clauses    Action
          Number                                                                   on FBO        on FBO    Description                                         Amount
                                                                                                                         Clauses on      in the     in FPDS
                                                                                                             on FBO
                                                                                                                            FBO        Contract

        Materials – Ceramic Matrix Composites

        FA8650-08-C­                                    Full
                          Modification    CPFF                        RFP             No          Yes         Yes           No           Yes          Yes      $1,820,000
        5304-P00005                                  Competition
        FA8650-08-C­                                    Full
        5305-P00002       Modification    CPFF                        RFP             No          Yes         Yes           No           Yes          Yes      $1,520,000
                                                     Competition

        FA8650-08-C­                                    Full
                          Modification      Cost                      RFP             No          Yes         Yes           No           Yes          Yes      $1,520,000
        5309-P00006                                  Competition

        Fuel Efficient Ground Vehicle Demonstrator
        W56HZV-06­                                    Full and
                                                                    Exercised
        C-0406­           Modification    CPFF       Open After                       Yes         Yes         Yes           No           Yes          Yes      $8,748,000
                                                                     Option
        P00042                                       Exclusion
        Energy Modeling




26 

                                                      Full and
        W91WAW-09­
                            Contract        FFP      Open After       RFP             Yes         Yes         Yes           No            No          Yes      $1,549,132
        C-0162
                                                     Exclusion
        Continuous Building Commissioning

        W912HQ-09­                                      Full
                            Contract      CPFF                        BAA             Yes         Yes          No           No           Yes          Yes       $515,195
        C-0053                                       Competition

        W912HQ-09­                                      Full
                            Contract      CPFF                        BAA             Yes         Yes          No           No           Yes          Yes      $1,064,396
        C-0056                                       Competition

        W912HQ-09­                                      Full
                            Contract      CPFF                        BAA             Yes         Yes          No           No           Yes          Yes      $1,390,003
        C-0055                                       Competition

        W912HQ-09­                                      Full
                            Contract      CPFF                        BAA             Yes         Yes          No           No           Yes          Yes      $2,754,000
        C-0054                                       Competition
             Appendix E. Defense-Wide Near Term Energy-Efficient Technologies Contracts (cont’d)

                                                                                                                        Posted       Included
                                                                                                            Posted
                                                                                                                       Recovery     Appropriate   Included
         Project /                                                                 Posted       Posted    Adequate                                           Contract
                          Contract      Contract   Competition   Solicitation                                             Act        Recovery     Contract
         Contract                                                               Solicitation   Award       Project                                            Action
                           Action        Type        Level        Format                                               Contract     Act Clauses    Action
         Number                                                                   in FBO       in FBO    Description                                         Amount
                                                                                                                       Clauses in      in the     in FPDS
                                                                                                           in FBO
                                                                                                                         FBO         Contract

       Energy Enterprise Management

       W912HQ-09­                                     Full
                           Contract       Cost                      BAA             Yes         Yes          No           No           Yes          Yes       $400,703
       C-0058                                      Competition
       W912HQ-10­                                     Full
       C-0050              Contract      CPFF                       BAA             No          Yes          No           No           Yes          Yes      $1,306,484
                                                   Competition

       Solid Waste Gasification

       W912HQ-09­                                     Full
                           Contract      CPFF                       BAA             Yes         Yes          No           No           Yes          Yes       $627,000
       C-0055                                      Competition

       W912HQ-09­                                     Full
                           Contract      CPFF                       BAA             Yes         Yes          No           No           Yes          Yes       $698,000
       C-0060                                      Competition

       W912HQ-09­                                     Full
                           Contract      CPFF                       BAA             Yes         Yes          No           No           Yes          Yes      $1,119,320
       C-0059                                      Competition

       W912HQ-09­                                     Full




27 

                           Contract      CPFF                       BAA             Yes         Yes          No           No           Yes          Yes       $341,403
       C-0061                                      Competition

       Anaerobic Digester Technology

       W912HQ-10­                                     Full
                           Contract      CPFF                       BAA             Yes         Yes          No           No           Yes          Yes      $1,905,825
       C-0001                                      Competition

       Landfill Gas Energy Capture
       W912HQ-08­
                                                      Full
       C-0040­           Modification    CPFF                       BAA             Yes         Yes          No           No            No          Yes      $1,953,507
                                                   Competition
       P00002
       W912HQ-09­                                     Full
                           Contract      CPFF                       BAA             Yes         Yes          No           No           Yes          Yes       $474,668
       C-0054                                      Competition

       Wind Lift Power Generator

       W911QX-09­
                           Contract       FFP      Sole-Source      N/A             Yes          No          No           No            No          Yes       $968,185
       C-0093
             Appendix E. Defense-Wide Near Term Energy-Efficient Technologies Contracts (cont’d)

                                                                                                                      Posted       Included
                                                                                                          Posted
                                                                                                                     Recovery     Appropriate   Included
         Project /                                                              Posted        Posted    Adequate                                           Contract
                          Contract     Contract   Competition   Solicitation                                            Act        Recovery     Contract
         Contract                                                              Solicitatio   Award       Project                                            Action
                           Action       Type        Level        Format                                              Contract     Act Clauses    Action
         Number                                                                n in FBO      in FBO    Description                                         Amount
                                                                                                                     Clauses in      in the     in FPDS
                                                                                                         in FBO
                                                                                                                       FBO         Contract

       Mobile Waste to Energy

            N/A             N/A          N/A         N/A           N/A            N/A         N/A         N/A           N/A          N/A          N/A        N/A

       HPCM Maui Energy Improvement Initiative
       FA9451-10-C­                                  Full
       0203               Contract      CPFF                       BAA            Yes         Yes         Yes           No           Yes          Yes      $3,879,564
                                                  Competition

       Algal Derived Biofuel Program

       SP0600-09-D­                                  Full
                          Contract       FFP                       RFP            Yes         Yes         Yes           Yes          Yes          Yes       $764,000
       0519                                       Competition

       SP0600-09-D­                                  Full
                          Contract       FFP                       RFP            Yes         Yes         Yes           Yes          Yes          Yes       $223,500
       0518                                       Competition

       SP4701-09-C­                                  Full
                          Contract      CPFF                       BAA            No           No          No           No           Yes          Yes      $3,105,022
       0040                                       Competition




28 

       Plasma Fusion (Polywell)

       N68936-09-C­
                          Contract      CPFF      Sole-Source      RFP            Yes         Yes         Yes           Yes          Yes          Yes      $1,944,000
       0125

       Fuel Cells
                                                   Full and
       W15P7T-10-C­
                          Contract      CPFF      Open After       BAA            Yes          No         Yes           No            No          Yes      $2,408,438
       B009
                                                  Exclusion
                                                   Full and
       W15P7T-10-C­
                          Contract      CPFF      Open After       BAA            Yes          No         Yes           No           Yes          Yes      $2,883,596
       B010
                                                  Exclusion
                                                   Full and
       W15P7T-10-C­
                          Contract      CPFF      Open After       BAA            Yes          No         Yes           No           Yes          Yes      $1,853,345
       B011
                                                  Exclusion
             Appendix E. Defense-Wide Near Term Energy-Efficient Technologies Contracts (cont’d)

                                                                                                                         Posted       Included
                                                                                                             Posted
                                                                                                                        Recovery     Appropriate   Included
          Project /                                                                 Posted       Posted    Adequate                                            Contract
                          Contract       Contract   Competition   Solicitation                                             Act        Recovery     Contract
          Contract                                                               Solicitation   Award       Project                                             Action
                           Action         Type        Level        Format                                               Contract     Act Clauses    Action
          Number                                                                   in FBO       in FBO    Description                                          Amount
                                                                                                                        Clauses in      in the     in FPDS
                                                                                                            in FBO
                                                                                                                          FBO         Contract
                                                     Full and
       W15P7T-10-C­                                                Exercised
                        Modification      CPFF      Open After                       Yes          No         Yes           No           Yes          Yes       $1,800,866
       B010-P00002                                                  Option
                                                    Exclusion
                                                     Full and
       W15P7T-10-C­                                                Exercised
                        Modification      CPFF      Open After                       Yes          No         Yes           No           Yes          Yes       $1,489,032
       B011-P00002                                                  Option
                                                    Exclusion
                                                     Full and
       W15P7T-10-C­                                                Exercised
                        Modification      CPFF      Open After                       Yes          No         Yes           No            No          Yes       $1,728,318
       B009-P00002                                                  Option
                                                    Exclusion
       Tactical, Deployable Micro-Grid
       W912-HQ-09­                                     Full
       C-0060             Contract        CPFF                       BAA             Yes         Yes          No           No           Yes          Yes       $1,302,000
                                                    Competition

       W912BU-10­                                      Full
                          Contract         FFP                       RFP             Yes         Yes         Yes           Yes          Yes          Yes       $1,924,230
       C-0003                                       Competition




29 

       Yes/No Totals                                                                27/5         24/8       16/16         4/28          27/5         32/0


       Subtotal                                                                                                                                               $55,981,732
Office of the Secretary of Defense Comments 



                                                                                                  Final Report 

                                                                                                   Reference 




                DIRECT OR OF DEFENSE RESEARCH AND E NG INEERING
                                        3030 DEFENSE PENTAGON
                                       WASHINGTON. DC 20301-3030
                                                                                                The date stamp
                                                                                JAN 1 0 2010
                                                                                                should be 2011, not
                                                                                                2010.
       MEMORA DUM FOR DIRECTOR. DEPARTMENT OF DEFE SE INSPECTOR
                        GENERAL

       THROUGH: DIRECTOR. ACQ UISITION RESO URC ES A D A AL YSIS

       SUBJ ECT: Response to DoDIG Drall Report on Defense-Wide Research and
                 Development Near Tenn Energy Efficient Projects (Project o. D2009-
                 DOOOAB-O170.004)


              As requested. I am providing responses to the general content and
       recommendations contained in the subject report.

       Recommendati on:
       After reviewing the draft report t dated 18 Nov 10, the Director. Defense Research and
       Engineering (DDR&E). offers no additional comments to the report and wi ll continue to
       monitor progress of projects throughout the life-cycle of this etTort.

       Res ponse:
       Concur with recommendati ons suggested .

                                 Acti on Officer




                                                   Alan R. Shaffer
                                                   Principal Deputy
                                                   Director. Defense Research & Engineering




                                                               30

Department of the Army Comments 





                                        DEPARTMENT OF THE ARM Y
                                HEADQUARTERS, U.S. ARMY MATERI EL COMMAND
                                               9301 CHAPEK ROAn
                                         FORT BELVOIR , VA 22060-5527




      AMClR                                                                  11 0 JAN   2011


      MEMORANDUM FOR Department of Defense Inspector General (DoDIG), ATIN: Mr. Daniel
      R. Blair, Room 300, 400 Army Navy Drive, Arlington, VA 22202-4704

      SUBJECT: Command Reply to Draft Report on Defense Wide Research and Development Near
      Term Energy Efficient projects (project No. D2009·DOOOAB·0 I 70.004) (01107)


       I. The U.S. Army Materiel Command (AMC) has reviewed the subject draft report. AMC
      endorses the enclosed comments on the draft report from the Army Contracting Command.

      2. The AMC r int of contact is   I.• •••••••••••••••••••

      Encl




                                        Printed on   ®   Recyded Paper




                                                                  31
                                   DEPARTMENT OF THE ARMY
                              U.S. ARMY COHTAACTIHG COMMANO
                                        .,." CHAPEK ROAD
                                    FORT _LVOR, YA zaoeo..IN7



AMSCC-IR                                                                 DEC 29 2010

MEMORANDUM FOR                           Director. Internal Review and Audil Compliance
Office, Headquarten, U.S. AnDy Materiel Conunand, 9301 Chapek Road, Fort Belvoir, VA
22060

SUBJECT: Defense-Wide Research and Developmenl Near Term Energy-Efficient Projects
(Project No. D2OO9-DOOOAB-0170.(04) (01106)


1. References:

    a. Memorandum, CECOM Conuacting Center, CCCE-CQA, 8 Dec 2010, subject U.S.
Anny ConlnlCling Command - CECOM Contracting Cenler Reply to DePartment of Defense
Inspector General (DODIG) Draft Report. Defense-Wide Research and Development Near Term
Energy-Efficient Projects (Project No. D2009-DOOOAB-0170.(04).

    b. Mernol1lndum, RDECOM Contracting Center, CCRD, 21 Dec 2010, subject Comments
00 DODIG Draft Audh Report "Defense-Wide Research and Development Near Tenn Energy­
EffICient Projects."

    c. Memorandum, National Capilal Region Contracting Center, CCNC, 17 Dec 2010,
subject: Inspector GeneraJ (IG) Department of Defense Draft Report on Defense-Wide Research
and Development Near Term Energy-Efficient Projects (Project No. D2009-DOOOAB-0170.(04).

     d. Memorandum. 000 Inspector General , 18 Nov 2010. subject; same as above.

     e. Draft Report, 000 Inspector General, 18 Nov 2010, subject: same as above.

2. After reviewing the documents at references Id and Ie. the U.S. Anny Contracting Command
(ACC)coocuB wilh lhecomments in references I.. Ib, and Ie (enclosed).

3. The ACC fntof conlacl is • • • • • • • • • • • • • • • • • • • •




3 Encls                                        JEfFREY P. PARSONS
1. CECOM'{;C Response                          Executive Director
2. RDECOM'{;C Response
3. NCR-CC Response




                                                           32

                                 DEPARTMENT OF THE ARMY
             t£AOOUAATERS   u s AAJAY CONTRACTlfo/G C~ COHTRACTlf'fG CENTER




"
                          ABERDEEN PROVING GROVNO MARY!.Nm 2101Q.5otOI




CCCE-CQA                                                                       08 DEC 10


MEMORANDUM FOR E)tccutive Director, US Anny Contracting Command, ATTN: AMSCC-TR
(Ms. Sonya Moman), 9301 Chapek Road. Fort Belvoir. VA 22060-5521

SUBJECf: U.S. Army ContrlCting Command - CECOM Contracting Center Repl y to Department
of [)efense I n~torGeneral (00010) Draft Report. Defense-Wide Research and Development
Near Term Energy-Efficient Projects (Report Number: 0-2009·DOOOAB-0170.004)


I. Command commenU on the subject (ina] report are enclosed.

2. Point of contact is • • • • • CCCE-CQA •• • • • •



                                               ~_TtVIJL
  Encl                                      ~       Edward G. Elgart
                                           o        Executive Director
                                                    CECOM Contracting Center
                                                    Army Contracting Command




                                                           33

                                                                                 Final Report
                                                                                  Reference




  CONIIUIIXCATXONS-I!LZC'1'ROHXCS C<HWQl (acON) COR'rRACTXNG CIIII'lD
                         REPLY TO DOD XG UPORT,
 Defense-Wide Re s e a rch a nd Development Near Te rm En e rgy- Effi cie nt
            Project s (Repo r t No . 02009-000 0AB- 0170.004 )


AUDI'!' CONCLUSION:
Department of Defense, Office of Inspector General (OOD- IG)
reviewed 32 award actions for planning , funding , contracting ,
and initial execution of 15 Defense-wide Near Term Energy ­
Efficient Technologies (NTEETJ program research and development
projects. Thirteen (13) contract actions were found that did
not have a solicitation and/or an award notice posted on FaO. In
addition, 16 solicitations and award notices did not facilitate
transparency by providing detailed descriptions of the projects.
Also, only 4 of the 32 contract actions listed required FAR
clauses on the pre-solicitation or award notices posted on FBO ;
however , 27 of the 32 actions included the required FAR clauses
in the contract file documentation.

ADDITIONAL 'ACTS:
Review to ensure that Military Departments (Army, Navy , Air
Force) and Defense Logistics Agency (OLA) contracting efforts
complied with Recovery Act requirements, Office of Management
and Budget (OMB) guidance, Federal Acquisition Regulation (FAR) ,
and DOD guidance .

CECOM Contracting Center addressed the following recommendations
as noted in report.


For the Executive Director, CECOM Contracting Center :

a. Direct the modification of contracts W15P1T-IO-C- B009 ,
WI5P7T-IO-C-BOIO , WlSP7T-lO-C-BOll, WlSP7T-lO-C-BOlO-P00002,
W1SP7T-10- C-B01I-P00002 to,

    (1) Include full justification for awards that are not fixed ­             Renumbered as
price in nature in the Federal Business Opportunities and other                Recommendation
required Web sites.                                                            2.a
    (2) Modify public award notifications to include the
appropriate descriptio ns of the Recovery Act work to be                       Deleted
performed in the Federal Business Opportunities and other
required Web sites.




                                             34
                                                                     Final Report 

                                                                      Reference 





b. Direct the modification of contract W15P7T-IO-C-B009 to
include all required Recovery Act Clauses.

cc:eeaum   CCNCIDf'l'S AND ACTION TAItEH
CECOM Contracting Center concurred with the following and
provided corrective action:
   - Justification for awards that are no t fixed price has been
     posted to Federal Business Opportunities (FBO)for
     contracts; W15P7T-IO-C-B009, W15P7T-IO-C-BOIO, and W15P1T­
     lO-C-BOll. Correc tive action was completed December 6 ,
     2010.
   - Incorporated Recovery Act clause 52 . 204-11 in contract
     W15P7T-IO-C-B009 POOOOI. Corrective action completed
     December 6, 2010.

CECOM Contracting Center does not concur with the following:
   - Modification of public award notifications to include the
     appropriate descriptions of the Recovery Act work to be
     performed 1n the FBO and other required Web sites.

C£COM Contracting Center reviewed contracts W15P?T-IO-C - B009,    Deleted
W15P?T-IO-C-B010 , and W15P7T-10-C-B011 notice of award
description and determined that a description of the Recovery
Act work was posted June 1, 2010.




                                      2




                                           35
                                                                                                   Final Report 

                                                                                                    Reference 





                                DEPARTMENT OF THE ARMY
          us ARMY RESEARCH, ~ AND ENG..UJaHG Ca.MND COffTRACTING CEHTIR
                                   411' SUSQIIEHANHA AVENUE
                             AHROUN PROVING GROUND., 2100f.,l013



CCRD                                                                   21 o.c.mber 2010

MEMORANDUM fOR Director, Internal Review and Audit Compliance Office, U.S. Army
Contracting Command, ATIN: AMSCCIR, 9301 Chapek Road, Fori BelYoir, VA 22060-5527

SUBJECT: Comments on DoDIG Draft Audit Report "Defense-Wide Resear<:h and
Development Ncar Term Energy-Efficiellt Projects'"


The U.s. Army Research, Development and Engineering Command Contracting Center
(RDECOM CC) acknowledges receipt of subj«1 report and provides the following comments to
the findings therein:

  B. Response related to "Direct the modification of contract W911 QX-09-C-0093 to include all
                                                                                                 Page 13 

required Recovery Act clauses," on page 20 of the report: RDECOM CC has modified the
contract 10 include all required Recovery Act clauses.

  b. Response related to "Direct the posting of the award announcement of contract W911 QX-      Page 13 

09-C-0093 to the Federal Business Opportunities and other required Web sileS" on page 20 of
the report : RDECOM CC has posted the award announcement in the Federal Business
Opportunities web site.




                                           ~r!-L~
                                           Executive r,~G          /




                                                         36
                              ARMY CONTRACTING COMMAND
                           NAnONAL CAPITAL REG"'N CQNTRACTlf'IG CENTf.R
                                      200 STOVALL STREET
                                     AUJ(AHDAIA, VA 22332




                                                                  December 17,2010

MEMORANDUM FOR                        , internal Review and Audit Compliance Office
(rRACO), Anny Contracting Command, 9301 Chapek Road, Fon. Belvoir, VA 22060

SUBJECT: lnspector General (IO) Depanment of Defense Draft Report on Defense-Wide
Research and Development Near Term Energy-Efficient Projects (Project No. D2009-0-000AB-
0170004)

I. The National Capital Region COOItacting Center (NCRCC) Command Reply on subject
follow-up audit is as follows :

10 Recommendation Number 4 - Head of ConIrae ling Activity, Army Contracting Command,
National Capital Region Contracting Center direct the modification of contract W91WAW-09·C-
0162 to include all required Recovery Act clauses. NCRCC concurs with recommendation and
contract has been modified to include all required recovery Bct clauses. Action completed on 30
September 20 I0 and a copy of modi fications POOOO I and POOOO2 are attached as enclosures.




                                                   Director                                       Attachments not
                                                   National Capital Region Contracti ng Center    included




                                            -
                                                            37
                           DEPARTMENT OF THE ARMY
                            u.s. ARMY CORPS OF ENGINEERS
                              WASHINGTON, D.C. 2031-..1000




CElR                                                            20 December 20 I0


MEMORANDUM FOR U.S. Depanment of Defense, Office of the Inspector General
                    400 Army Navy Drive
                    Arlington, 22202-4704

SUBJECT: DGDIG Draft Repot-Defense-Wide Research and Development Near Term
Energy-Efficient Projects (project No. D2009-DOOOAB-170.004)

1. Reference DODIG, subject as above.

2. The USACE Headquarters concurs with the Humpbrey's Engineering Center Support
Activity.

                                                              or my point of

                                              ~




                                                               1,     , ,17
                                                               ~
                                "-J.---'BRENDA L. MA YE'!x                    /1
Encl
                                        Deputy Chief      ( ;
                                        HQ lntemal Review Office




                                                        38

                                  DEPARTMENT OF THE ARMY
                               HUMPHREYS ENGINEER ~ SLWPORT ACTIVITY
                                    HUMPHREYS ENGIN£ERtNG c.ENTER
                                         170t TEl£GRAf'H ROAD
                                       ALEXANDRIA VIRGINIA 22315-3810




CECf-HC                                                                    3 December 20 I0


MEMORANDUM THRU CECf-W1N • • • • • • • •

FORCEIR • • • •            I
SU BJECT: ooDia Draft Report ~ Dcfense-Wide Research and Development Near Tetm Energy­
Efficient Projects (Project No. D2009-DOOOAB-0170.004)


l. RefC1'e?-ces:

     a.   Email dated 30 Novcmbcr20fO. SAB.

     b.   Memorandwn dated November 18. 20 I0, SAB.

2.   The undersigned has reviewed subject report nnd submits the follow ing comments:

     a. Paragraph 5a-Agree. Corrective Action: A copy of modification POOO03 for contract
          W91 2HQ-08-C-0040 was torwarded showing .111the mandatory Recovery Act Clauses
          that were omitted in Modification POOOO2; Corrective action completed July 29. 2010.

     b. Paragraph 5b-Agree. Corrc¢ti ve Action: The Humphreyg Engineer Cenler Support
        A,ctivity (HECSA) Contracting Center amended the aword notices for conlrncts
        W91 2HQ-09-C-0053, W9121-1Q-09-C-0054, W912HQ-09-C-0055, W912HQ-09-C-0056,
        W91 2HQ-09-C-0058, W91 2HQ-09-C-0059, W912HQ-09-C-0060, W912HQ-09-C-006 I,
        W9t2HQ- IO-C-OOOI, and W912HQ-1 O-C·OO50 10 include the UR L i,a the
        SERDPIESTCP Website. The URL is attached to a faci sheet which gives ihc desctiJgjon
        of the work being done and its benefit to the DoD. the taxpayer and the end user,
        Corrective action completed July 29, 2010.

3.   If additiunal information is nceded, plense contact • • • • • • • • • •




                                              ~~Jy<~60~
                                                1~ORAH L GfORDANO
                                                 ~ll." Contrat:ting Chief




                                                                 39

Defense Logistics Agency Comments 





                                                DEFENSE LOG I ST I CS AGEN           Y
                                                         II EADq U ARTERS
                                                8725 J     HN J. K I N G M A N ROA D
                                          F O RT B E LVOIR, V I R G IN I A   220 6 0 -622 1

  IN lu:I'l Y                                                                                          JAN 0 ti 2011
   IlEfEnTO




                MEMORANDUM FOR PROGRAM DIRECTOR, ACQUIS ITION AND CONTRACT
                                  MANAGEMENT DI RECTORATE, DEPARTMENT OF
                                  DEFENSE, OFFICE OF T HE INSPECTOR GENERAL

                SUBJECT: Draft Aud it Report : Defense-W ide Research and devclopmclH Near Term Energy­
                             Efficient Projects (I>rajcet No. D2009-DOOOAB-0 170.004)

                   The Defense Logist ics Agency (DLA) hns reviewed this draft audit rep0l1 and eonClIl'S with
                the finding and recommendation as prescnted . The award announccmcnt ror contmct SP470 1-
                09-C-0040 was posted to the Federal Busi ness Opportunities (FcdBizOps) on
                December 16,2010. It was also posted on the FedemlReporti ng.gov site on August 31, 2009 and
                then evcry fbur months thereafter unt il all fu uds were spent. Additionally. I have instructed my
                Director ror Acquisi tion Po licy to prepare correspondence to thc DLA Contracti ng Workforce
                remi nding them of their responsibility to post contmct award annou ncements to FedB izOps.

                   The ad ministrative point of CQntact fo r this response




                                                                  ~~C~I~I~y-'
                                                                       Director, DLA Acquisit ion




                                                                              40

THIS PAGE INTENTIONALLY LEFT BLANK

